         U.S. Department of Energy
         Office of Inspector General
         Office of Audits and Inspections




Special Report
The Department of Energy's
Transportation Electrification
Program




OAS-RA-12-11                                May 2012
                                  Department of Energy
                                    Washington, DC 20585
                                          May 10, 2012


MEMORANDUM FOR THE DEPUTY ASSISTANT SECRETARY FOR ENERGY
               EFFICIENCY

FROM:                     Joanne Hill, Director
                          Central Audits Division
                          Office of Inspector General

SUBJECT:                  INFORMATION: Special Report on "The Department of Energy's
                          Transportation Electrification Program"

INTRODUCTION

The Department of Energy established the Transportation Electrification Program (Program) to
demonstrate and evaluate the deployment of plug-in hybrid vehicles and their associated
infrastructure needs. Funded by the American Recovery and Reinvestment Act of 2009, the
Program provided about $400 million to 18 grant recipients—12 non-profit entities and 6 for-
profit entities. The grants are intended to further the development of the plug-in hybrid electric
vehicle industry in the United States; ensure achievement of the President's goal to have one
million of these vehicles on the road by 2015; and, create thousands of jobs.

The Department has faced challenges with ensuring adequate oversight of the financial condition
of grant recipients. Specifically, in our audit Solar Technology Pathway Partnerships
Cooperative Agreements (OAS-M-11-02, March 2011), we noted the Department had not
ensured recipients complied with requirements regarding obtaining and reviewing annual audits
of costs incurred by recipients. Because of the importance of the Recovery Act and the previous
problems identified in this area, we initiated this review to evaluate whether the Department
obtained and reviewed financial and compliance audits of the Program's six for-profit recipients
and their reports on costs incurred under the grants.

RESULTS

The Department could improve its financial management of the Program. Specifically, the
Department had not obtained and reviewed required financial and compliance audits and cost
reports for the Program's six for-profit recipients to determine the financial condition of the
recipients; the reasonableness of costs expended under their awards; and, the adequacy of
internal controls and compliance with laws and regulations.
                                      Audit Requirements

At the time of our review, the Department had neither obtained nor reviewed required financial
and compliance audits of the Program's six for-profit recipients and their reports on costs
incurred under the grants. Specifically, the Department had not:

       Ensured that recipients had completed independent audits as required by Federal
       regulations (10 CFR 600.316). In fact, as of May 2011, the Department had neither
       obtained nor reviewed such audits for any of the six for-profit recipients, even though all
       the grants were awarded by May 2010. Under Federal regulations, for-profit financial
       assistance recipients are required to obtain an independent audit each year they spend
       more than $500,000 in Federal awards. The audits must determine and report on whether
       recipients have internal control structures in place that provide reasonable assurance that
       they have complied with Federal regulations and the terms and conditions of the awards.
       In addition, the audits must include testing a sample of Federal award expenditures and
       generally should be made a part of the regularly scheduled annual audit of the recipient's
       financial statements. During our review, the Department requested audit reports from its
       six for-profit recipients and as of February 2012, had obtained five reports.

       Requested and reviewed cost reports to determine the allowability of costs as required by
       Federal regulations (10 CFR 600.317). The terms and conditions of the awards for two
       of the for-profit recipients did not require submission of cost reports to the Department.
       The other four for-profit recipients were required to submit annual cost reports under the
       terms and conditions of their awards. Subsequently, Department officials requested and
       received the required reports from these four recipients over the course of our review.
       Because of delays in receiving cost information, we did not review recipient costs for
       allowability.

Initially, Department officials acknowledged they were unaware of whether recipients had
received independent audits or submitted cost reports. Additionally, Department officials told us
that they had not established a process to track, collect, review and follow-up on the receipt of
required audits. Officials also explained that they had not obtained audits of financial
statements, internal controls and compliance with laws and regulations because, in the past, the
guidance on audit requirements related to for-profit recipients was not clear. Our prior report,
Solar Technology Pathway Partnerships Cooperative Agreements, described the lack of
guidance on reporting requirements related to for-profit recipients and recommended that the
Department revise its guidance. The Department issued its final version of the updated guidance
on audits of for-profit recipients and subrecipients in February 2011 requiring that entities
expending more than $500,000 per year obtain an audit for that year by an independent auditor.

SUGGESTED ACTIONS

Department officials began to take action to address identified issues during our review.
Therefore, no formal recommendations are being made in this report. However, the Program's



                                                2
experience in ensuring sufficient financial information is available to monitor recipients'
financial performance provides valuable lessons learned for future Department projects.
Accordingly, we suggest that the Deputy Assistant Secretary for Energy Efficiency:

       Develop a system to track the receipt and review of required audits and annual cost
       reports for the Program.

Because no formal recommendations are being made in this report, a formal response is not
required. An exit conference was held with management on February 16, 2012.

We appreciated the cooperation of staff during this review.

cc: Deputy Secretary
    Associate Deputy Secretary
    Acting Under Secretary for Energy
    Assistant Secretary for Energy Efficiency and Renewable Energy
    Chief of Staff




                                                 3
                                                                 IG Report No. OAS-RA-12-11

                       CUSTOMER RESPONSE FORM

The Office of Inspector General has a continuing interest in improving the usefulness of its
products. We wish to make our reports as responsive as possible to our customers' requirements,
and, therefore, ask that you consider sharing your thoughts with us. On the back of this form,
you may suggest improvements to enhance the effectiveness of future reports. Please include
answers to the following questions if they are applicable to you:

     1. What additional background information about the selection, scheduling, scope, or
        procedures of the audit or inspection would have been helpful to the reader in
        understanding this report?

     2. What additional information related to findings and recommendations could have been
        included in the report to assist management in implementing corrective actions?

     3. What format, stylistic, or organizational changes might have made this report's overall
        message more clear to the reader?

     4. What additional actions could the Office of Inspector General have taken on the issues
        discussed in this report which would have been helpful?

     5. Please include your name and telephone number so that we may contact you should we
        have any questions about your comments.


Name                                          Date

Telephone                                     Organization

When you have completed this form, you may telefax it to the Office of Inspector General at
(202) 586-0948, or you may mail it to:

                               Office of Inspector General (IG-1)
                                     Department of Energy
                                    Washington, DC 20585

                                  ATTN: Customer Relations

If you wish to discuss this report or your comments with a staff member of the Office of
Inspector General, please contact our office at (202) 253-2162.
This page intentionally left blank.
The Office of Inspector General wants to make the distribution of its reports as customer friendly and cost
  effective as possible. Therefore, this report will be available electronically through the Internet at the
                                             following address:

                   U.S. Department of Energy Office of Inspector General Home Page
                                         http://energy.gov/ig

      Your comments would be appreciated and can be provided on the Customer Response Form.
